<html>
<title> - EXAMINING BIODIVERSITY LOSS: DRIVERS, IMPACTS, AND POTENTIAL SOLUTIONS</title>
<body><pre>[Senate Hearing 117-48]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 117-48

                EXAMINING BIODIVERSITY LOSS: DRIVERS, 
                   IMPACTS, AND POTENTIAL SOLUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2021

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-270 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------           
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                  THOMAS R. CARPER, Delaware, Chairman
BENJAMIN L. CARDIN, Maryland         SHELLEY MOORE CAPITO, West 
BERNARD SANDERS, Vermont                 Virginia, 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      KEVIN CRAMER, North Dakota
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
                                     DAN SULLIVAN, Alaska
                                     JONI ERNST, Iowa
                                     LINDSEY O. GRAHAM, South Carolina

             Mary Frances Repko, Democratic Staff Director
               Adam Tomlinson, Republican Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 19, 2021
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................     3

                               WITNESSES

Gerber, Leah, Ph.D., Founding Director, Center for Biodiversity 
  Outcomes, Life Sciences Center; Arizona State University.......     5
    Prepared statement...........................................     7
    Responses to additional questions from Senator Carper........     9
Sullivan, Edmund, Executive Officer, Santa Clara Valley Habitat 
  Agency.........................................................    14
    Prepared statement...........................................    16
    Responses to additional questions from Senator Carper........    30
Treharne, Andy, Senior Director, External Affairs, Congressional 
  Sportsmen's Foundation.........................................    35
    Prepared statement...........................................    38
Schmidt, John, Board of Directors, PARTNERSCAPES.................    46
    Prepared statement...........................................    48

                          ADDITIONAL MATERIAL

Testimony from Thomas E. Lovejoy and Lee Hannah..................    76
Testimony of Dr. Gabriela Chavarria..............................    79
Letter to Senators Carper and Capito from the World Wildlife 
  Fund, May 28, 2021.............................................    88
Statement of the Defenders of Wildlife, May 6, 2021..............    92

 
 EXAMINING BIODIVERSITY LOSS: DRIVERS, IMPACTS, AND POTENTIAL SOLUTIONS

                              ----------                              


                        WEDNESDAY, MAY 19, 2021

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(Chairman of the Committee) presiding.
    Present: Senators Carper, Capito, Cardin, Whitehouse, 
Kelly, Padilla, Boozman, and Ernst.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Good morning, everybody. I am pleased to 
call the Committee to order.
    I am pleased that we are joined today by a distinguished 
panel of witnesses to examine the important issue of 
biodiversity loss: Dr. Leah Gerber, Ed Sullivan, Andy 
Treharne--hope I got that right, Andy--and John Schmidt. We 
welcome you all to the Environment and Public Works Committee.
    I just want to begin by saying that I appreciate that you 
come to us from across the length and breadth of our great 
country. That is important because biodiversity loss is a 
challenge that transcends geographical boundaries and State 
lines.
    Across our country's forests, our grasslands, our deserts, 
our rivers, and oceans, and all around the world, the ecosystem 
that supports all life is threatened by heat waves, by intense 
storms, by wildfires, and more. At the same time, wildlife must 
contend with invasive species, including pests and diseases 
that we hear about regularly.
    The more species each ecosystem can sustain, in other 
words, the greater the biodiversity in each, the greater 
resilience those ecosystems have to the threats I have just 
described, and yet, around the world, biodiversity is declining 
faster now than any other time in human history. Let me say 
that again: Around the world, biodiversity is declining faster 
now than at any other time in human history.
    Our changing climate, habitat loss, the spread of invasive 
species in our increasingly connected world, and pollution have 
all contributed to this decline.
    For example, the ocean absorbs almost a third of the carbon 
dioxide emitted into our atmosphere every year, a third. The 
carbon dioxide turns into acid in the ocean, threatening 
species at the base of the ocean food web. That impact on the 
food web is profound, affecting everything from fish to one of 
our most beloved species in Delaware, a little bird called the 
red knot.
    That same carbon dioxide contributes to global warming, 
which is causing sea level rise. As the seas rise, they 
threaten the red knot's coastal habitat, making this iconic and 
threatened species even more vulnerable.
    With limited food resources and diminishing habitat, the 
incredible 19,000 mile roundtrip migration that red knots make 
each year--think of that, 19,000 miles--they are about the size 
of this, Senator Capito, they are about the size of the end of 
my hammer, but each year they make this migration, and it has 
become more difficult, not easier, and it is a migration that 
threatens their long term survival.
    The impact of biodiversity loss extends far beyond this 
remarkable species going extinct. It also impacts each and 
every one of us. How, you might ask.
    Well, first of all, biodiversity is directly linked to 
human health. The loss of biodiversity and ecosystem resilience 
is making animals more susceptible to disease, a particularly 
troubling development since the vast majority of emerging 
diseases in people, including potential pandemics, originate in 
wildlife. We are all too familiar with the consequences of the 
zoonotic diseases. COVID-19 is one of them.
    Noting this threat and many others, the World Economic 
Forum has named biodiversity loss among the top three risks to 
humanity in terms of impact, along with weapons of mass 
destruction and climate action failure.
    One sector at particular risk is agriculture, which is, of 
course, critical for global food security and need for our very 
lives. Agriculture is the No. 1 industry in my home State of 
Delaware, as it is for many of our colleagues on this 
Committee. Our agriculture and food systems cannot exist 
without healthy soils, plant pollination, and pest control, all 
of which are linked to biodiversity. We simply cannot produce 
food without the birds, without the bees, and even the lowly 
earthworms and healthy soil bacteria. If we fail them, we 
ultimately fail ourselves.
    Though the current state of biodiversity decline paints a 
bleak picture for the future, there is reason for hope. If we 
take action, we can stem biodiversity loss and prevent the harm 
that comes with it.
    This is an issue on which our Committee has a bipartisan 
record of success, a record of which all of us can be proud. 
Last Congress, we enacted into law both the WILD Act and the 
ACE Act, both of which reauthorized important programs to 
conserve wildlife and habitat at home and abroad. We also 
included the first ever wildlife crossings safety section in a 
highway bill, which would address the problems of habitat 
fragmentation.
    As Chairman, I hope that we can build on that record this 
Congress, and I am eager to work with all of our members on 
both sides of the aisle to do so.
    We must also ensure that the Federal budget provides robust 
funding for wildlife protection. We know that our conservation 
laws work best for both wildlife and people when the agencies 
responsible for implementing them have the resources that they 
need to do their jobs effectively.
    What I have described is a moral and practical imperative, 
and like so many of the issues before our Committee, this is a 
challenge we all face, and one that we can resolve together. It 
is no overstatement to say that our livelihoods and those of 
our children hang in the balance.
    With that, I am pleased to recognize, for her comments, our 
Ranking Member, Senator Shelley Capito, great State of West 
Virginia, the Mountain State, for her opening statement before 
we hear from our witnesses.
    Senator Capito.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman, and thank you for 
calling today's hearing. I also want to thank our witnesses for 
joining us and look forward to hearing from our witnesses 
today.
    Our Nation, as the Chairman has said, is abundant with 
natural beauty, and the Chairman and I agree wholeheartedly 
about the importance of conservation. It is essential that we 
preserve our public lands and our ecosystems while ensuring 
access to outdoor recreation.
    The Committee has a history of passing bipartisan 
legislation aimed at conserving wildlife and wildlife habitat. 
Just last year, and the Chairman spoke about this, this 
Committee passed the America's Conservation Enhancement Act, 
which President Trump signed into law in October.
    Included in the ACE Act was the Chesapeake Watershed 
Investment for Landscape Defense, Chesapeake WILD, Act, which 
created a new $15 million grant program within the U.S. Fish 
and Wildlife Service to support habitat restoration in the Bay 
area. As a West Virginian, and as someone from Delaware, this 
is important to both of us.
    The Chesapeake WILD Act, the first Federal wildlife 
conservation grant tailored to benefiting species in the 
Chesapeake Bay Watershed, has bolstered our State's growing 
outdoor recreation industry. This important Fish and Wildlife 
program protects vital ecosystems while also enhancing our 
outdoor industry by supporting populations of birds, fish, and 
mammals prized by our outdoorsmen, sportsmen, and fishermen, 
and we all know West Virginia's $9 billion outdoor recreation 
industry, which supports 91,000 jobs in our State is good for 
the soul and good for the economy.
    Our anglers and sportsmen, in turn, fund conservation 
through Pittman-Robertson Act programs backed by the Federal 
excise taxes on ammunition and fishing tackle. This creates a 
virtuous cycle: Improvements to our natural heritage encourage 
more people, including sportsmen, to get out and enjoy the 
great outdoors, leading to more investment in conservation.
    Enhanced biodiversity from this cycle also benefits other 
sectors, such as agriculture, by supporting species that 
benefit mankind in more direct ways, such as pollinators or 
predators that eat pests.
    Beyond our Committee, the Great American Outdoors Act, 
which I cosponsored, was enacted last Congress and will provide 
investments in our public lands and to address their 
maintenance backlogs. These investments will yield benefits for 
ecosystems and free up other tax dollars otherwise spent by the 
National Park Service, the Forest Service, and other Federal 
public agencies on addressing the Federal maintenance to 
address priorities, such as wildlife conservation.
    West Virginia is known for being wild and wonderful, and 
our State is blessed with abundant natural resources, from 
forests to mountains to rivers and to lakes. To showcase our 
State's natural beauty, I worked to redesignate the New River 
Gorge National River to become a new National Park and 
Preserve.
    Working with local leaders, our hunters and fishermen, 
economic development folks, and small business owners, we were 
able to craft a bill that gives the New River Gorge the 
recognition it deserves while preserving historic hunting and 
fishing rights.
    I am proud to say that President Trump signed that bill 
into law last year, and I am also thrilled to be sharing this 
part of Almost Heaven with the rest of the world for 
generations to come. Biodiversity is intrinsic to the natural 
beauty of our Nation, and habitat conservation is key to 
healthy, biodiverse ecosystems.
    Two weeks ago, the Biden administration issued the 
Conserving and Restoring America the Beautiful Report, which 
intended to outline steps toward President Biden's goal of 
conserving at least 30 percent of our lands and waters by 2030, 
commonly referred to as 30 by 30. However, the 24 page document 
included very few details as to how we can achieve President 
Biden's ambitious goal.
    While a number of the core principles, including voluntary 
and locally led approaches to conservationism, outlined in the 
plan are bipartisan in nature, I do have a number of concerns. 
For instance, the report does not even define conservation, nor 
does it specify what lands should be included under that 
program. These questions need to be answered.
    I look forward to continuing to work with the 
Administration in a bipartisan way on these and other issues, 
but my lasting and meaningful solutions to addressing 
biodiversity must come from legislation.
    Today, I look forward to our discussion on consensus driven 
solutions to these challenges.
    Thank you, Mr. Chairman, and I yield back my time.
    Senator Carper. Thanks very much, Senator Capito.
    We have four witnesses joining us today. The first is going 
to be introduced to us by Senator Kelly from Arizona.
    Senator Kelly, the show is yours.
    Senator Kelly. Thank you, Mr. Chairman, and thank you for 
holding today's hearing on the biodiversity challenges we are 
facing in the United States and across the world.
    As you noted, animal, insect, and plant species are 
declining at rates we have never seen before, tens to hundreds 
of times higher than the average background levels spanning the 
last 10 million years. Scientists estimate that nearly one-
third of the species in the United States are close to 
extinction. These are commonly known species, like polar bears 
and bumblebees. In Arizona, we could lose wildlife like the 
Sonoran pronghorn antelope and the desert tortoise, to name 
just a couple.
    Today's hearing will focus on this alarming trend, and I am 
grateful that the Committee tapped one of the world's leading 
experts to testify on this issue, Dr. Leah Gerber. Dr. Gerber 
is a professor of conservation science at Arizona State 
University School of Life Sciences. She is also the founding 
director of ASU's Center for Biodiversity Outcomes. Dr. Gerber 
is the lead author on the United Nation's report issued in 2019 
that was a wake up call to the world that extinction rates are 
accelerating.
    Mr. Chairman, I look forward to hearing Dr. Gerber's 
testimony, and thank you.
    Senator Carper. Thank you very much, Senator Kelly, and 
welcome Dr. Gerber.
    You are now recognized for your statement. Go ahead.

STATEMENT OF LEAH GERBER, PH.D., FOUNDING DIRECTOR, CENTER FOR 
  BIODIVERSITY OUTCOMES, LIFE SCIENCES CENTER; ARIZONA STATE 
                           UNIVERSITY

    Ms. Gerber. Thank you, Mr. Chairman, Ranking Member Capito, 
and members of the Committee for the opportunity to speak with 
you today about the biodiversity crisis.
    I am Dr. Leah Gerber, professor in the School of Life 
Sciences and Founding Director of the Center for Biodiversity 
Outcomes at Arizona State University. I was a lead author for 
the Intergovernmental Panel on Biodiversity and Ecosystem 
Services Global Assessment, which provided the most 
comprehensive evaluation of the status of biodiversity and 
nature's contribution to people in the U.S. and globally.
    More species of plants and animals are threatened with 
extinction now than any other time in human history. Twenty-
five percent of all species, including 40 percent of amphibians 
and 30 percent of marine mammals, are threatened with 
extinction.
    We are not talking about just extinction; we are talking 
about the general decline of nature. Compared to the 1970s, 
there are 3 billion fewer birds in North America for people to 
enjoy, and coral reefs have shrunk by about half their original 
extent.
    The consequences of the decline of nature aren't restricted 
to wildlife; they extend to people. Nearly 80 percent of the 18 
categories of nature's contributions to people have declined. 
These ecosystem services provided by biodiversity include 
things like nutrient cycling, carbon sequestration, 
pollination, and agricultural productivity.
    Protecting biodiversity ensures the resilience of 
agriculture as it intensifies to meet growing demands for food 
production, and food security depends on healthy pollinator 
populations. Diverse and abundant populations of bees are 
associated with higher rates of production in America's crop 
species.
    Biodiversity is the foundation of our economy and well 
being, yet it is declining at unprecedented rates.
    The causes of the biodiversity crisis are well known: 
Habitat loss, overexploitation, climate change, pollution, and 
invasive species. Rapid climate change, for example, influences 
species' ability to adapt, contributing to biodiversity loss. 
At present, our main challenge is not trying to figure out what 
is wrong, it is about deciding to take action to address the 
problem.
    The science is clear about the biodiversity crisis, and we 
have options for solutions. We can start by looking to 
experience to figure out what works to conserve biodiversity.
    Congress could consider expanding Federal investment in 
habitat restoration, climate adaptation, and habitat 
connectivity programs. Congress should also provide robust 
funding for our Nation's wildlife protection laws. These laws 
work best when the agencies responsible for implementing them 
have adequate resources.
    My own work has shown that a return on investment approach 
to prioritize threatened species recovery actions can help save 
more species from extinction.
    Innovative financing and financial markets for biodiversity 
are promising approaches to measure and value biodiversity. An 
institutional structure is needed to facilitate corporate 
disclosure on biodiversity impacts and dependencies and to 
report progress toward a sustainable development goals.
    By acknowledging that biodiversity is the foundation of 
social and economic systems, we can begin to mainstream the 
value of biodiversity. Congress can help lead the way by 
providing direction on this solution.
    Building bridges between government and non-governmental 
sectors will promote the growing sense of corporate 
responsibility that is rapidly emerging. For example, I have 
worked with Bayer to develop a pesticide risk assessment 
framework that allows sustainable agriculture while ensuring 
the protection of endangered species.
    A national biodiversity strategy for the U.S. would focus 
and coordinate government response to the biodiversity crisis. 
While some U.S. agencies are responsible to ensure the 
persistence of biodiversity as part of their mission, many 
agencies impact biodiversity and can play a significant role in 
its protection.
    We could also re-establish a leadership role in 
international conservation, from issues like wildlife 
trafficking to mitigating plastic pollution in our oceans.
    We need an inclusive process that brings people together to 
solve our Nation's biodiversity challenge. A long history of 
discrimination has led to clear patterns of injustice and 
inequity in our access to nature. Committing to building a 
diverse work force makes the science and the scientists better 
prepared to address the growing challenges to biodiversity.
    We are at a crossroads, and the signs are clear which 
direction we should take. This is the time for Senate and 
Congress to listen to the science, build on our Nation's 
conservation history, and take action for biodiversity, and 
ultimately, for humanity.
    Thank you.
    [The prepared statement of Ms. Gerber follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Dr. Gerber, thank you very much. ASU, 
right?
    Ms. Gerber. Yes.
    Senator Carper. My wife is a graduate of ASU.
    Ms. Gerber. Wonderful.
    Senator Carper. The other ASU, Appalachian State 
University.
    Ms. Gerber. Oh, OK.
    Senator Carper. We were out in the Redwood City, 
California, on recess a week ago, visiting a bunch of 
technology companies out there, and we stayed at Marriott 
Hotel. I went down in the breakfast area to try to find a quiet 
place so I could do a Zoom call, a teleconference call. And all 
these athletes, women athletes, about 25 of them, came in from 
ASU and filled up the dining room, and just were full of energy 
and talking and everything.
    My wife went over and said to them that she was a graduate 
of ASU. She said, ``My husband is over there trying to do a 
Zoom call,'' and believe it or not, they stopped talking. They 
could not have been nicer, and we are just very impressed with 
their team discipline. So, ASU, welcome aboard.
    Ms. Gerber. Thank you.
    Senator Carper. Our next witness is Ed Sullivan. Ed 
Sullivan, just a little bit of background, Ed Sullivan, as some 
of you may recall, worked as a journalist before hosting 
variety shows in the 1930s and 1940s. He eventually became host 
of the Ed Sullivan Show, the longest running TV variety program 
in history, which featured acts like The Supremes, like the 
Beatles, Jerry Lewis, Elvis Presley, among legions of others.
    All right, I am kidding, but we do have a really big show 
today.
    Kidding again, but in all seriousness, we are glad to have 
the real Ed Sullivan.
    This is Edmund Sullivan, here with us today.
    The original Ed Sullivan has passed on, but his memory 
lingers on Wikipedia. If you want to have a good time, check 
out Ed Sullivan on Wikipedia, and you can see the Beatles as 
kids, almost, and Elvis Presley at the age of about 20. It is 
just a hoot. Just great.
    The real Ed Sullivan, Edmund Sullivan, and Mr. Sullivan is 
the Executive Officer of the Santa Clara Valley Habitat Agency. 
He has over 25 years of experience in habitat conservation 
planning, natural resource management, and land use planning.
    Mr. Sullivan, we thank you for taking the time to join us 
this morning, and you may begin when you are ready. Take it 
away.

 STATEMENT OF EDMUND SULLIVAN, EXECUTIVE OFFICER, SANTA CLARA 
                     VALLEY HABITAT AGENCY

    Mr. Sullivan. Thank you, Chairman Carper, Ranking Member 
Capito, and members of the Committee, thank you for the 
opportunity to testify today. I thank you for your leadership. 
I hope my testimony will prove to be a catalyst into further 
exploration of benefits and lessons learned from large scale, 
multi-agency habitat conservation plans, which are effective 
solutions to stemming biodiversity loss while facilitating 
economic development.
    In thinking about the future of habitat conservation 
planning, it is important to appreciate their legacy. Through 
the Endangered Species Act HCP program, endangered species 
conservation has evolved considerably, and several lessons can 
be gleaned from this development, most notably that with 
foresight planning and investment, economic development and 
biodiversity are not mutually exclusive.
    In assessing these pioneer arrangements, it is important to 
consider not only the efficiency of their formation and 
implementation processes, but also their effectiveness in 
advancing valuable conservation goals. Landscape scale HCPs are 
attempting to implement sustainable development principles of 
permitting economic development, while at the same time, 
protecting wildlife habitat and diversity, as well as 
sequestering carbon.
    The integration of environment and development will lead to 
improved living standards for all, better protected and managed 
ecosystems, and a safer, more prosperous future.
    Protected areas are the backbone of global biodiversity 
conservation. Land conservation at the ecosystem scale is a key 
driver for achieving that objective, and regional HCPs are one 
of the best mechanisms available capable of implementing that 
objective.
    With the effects of climate change, regional HCPs and other 
similar conservation efforts are leading a paradigm shift in 
reserve design and function by identifying and protecting 
biodiversity hotspots in those areas least likely to undergo 
rapid climate induced changes.
    Large scale HCPs are wired for tackling climate change 
since we are ecosystem focused, intent on building resiliency, 
replication into the landscape, establishing wildlife linkages, 
and protecting climate refugia.
    Landscape scale HCPs recognize threats to biodiversity and 
fragmented landscapes and are positioned to help mitigate these 
threats by conserving large habitat patch areas linked to one 
another through protected wildlife corridors. HCPs have the 
capacity to stem biodiversity loss because it is our core 
mission.
    We also have financial sustainability necessary to succeed, 
endowment funding focused on in perpetuity land management and 
monitoring, and we are focused on building collaborative 
partnerships between all levels of government, NGOs, and 
private landowners.
    Another important point is the adaptive, management driven 
implementation approach that HCPs take, as well as science 
centered land conservation decisionmaking focused on protecting 
biodiversity hotspots.
    I hope my testimony presents a wide range of illustrative 
actions for sustainability and pathways for achieving them 
across and between sectors. I believe it highlights the 
importance of adopting integrative management and cross-
sectoral approaches, like regional, landscape scale HCPs that 
consider the trade offs necessary infrastructure development 
and biodiversity conservation.
    Will striking these balances require substantial financial 
investment? Yes, but not nearly as much as losing the $125 
trillion worth of ecosystem services that experts estimate 
nature provides to the planet every year.
    Thank you.
    [The prepared statement of Mr. Sullivan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Mr. Sullivan, thank you very, very much.
    Senator Capito, I recognize you to introduce Andy Treharne.
    My staff and I were wracking our brains, going back in time 
to early year, going back to the original Ed Sullivan Show when 
the Beatles were on. We were trying to think of a Beatles song 
that would actually be pertinent to the subject of today's 
hearing. The best we could come up with was I Am the Walrus, 
which is not too bad, not too bad.
    Senator Capito, I re-recognize you again to introduce our 
next witness, Andy Treharne.
    I hope I have that right, Andy.
    Senator Capito.
    Senator Capito. Thank you, Senator Carper.
    I would like to take the opportunity to introduce our 
witness, Mr. Andy Treharne, and I am glad you could join us 
today. He drove up from Richmond, he said.
    He joined the Congressional Sportsmen's Foundation in 2011 
as the organization's lead on sportsmen's policy issues 
throughout the western United States, and currently serves as 
CSF's Senior Director of External Affairs. Prior to his role, 
he served as policy director for the House Republicans in the 
Colorado General Assembly, where he helped steer a 33 member 
caucus through agenda development, policy and budget analysis, 
and regulatory monitoring.
    He's also an alumnus of Capitol Hill, having served as a 
legislative aide for former Senator Wayne Allard.
    So a warm welcome back to the Hill, Mr. Treharne.
    As someone who has dedicated his life to hunting, wildlife, 
and conservation issues, Mr. Treharne understands the essential 
role the sportsmen have in preserving our natural environment. 
His wealth of experience on these issues will be of good 
benefit to the hearing today.
    We are happy to have you here, and look forward to your 
testimony.
    Mr. Treharne.

STATEMENT OF ANDY TREHARNE, SENIOR DIRECTOR, EXTERNAL AFFAIRS, 
              CONGRESSIONAL SPORTSMEN'S FOUNDATION

    Mr. Treharne. Chairman Carper, Ranking Member Capito, and 
members of the Committee, thank you for the opportunity to 
testify on one of the most pressing conservation challenges 
facing our Nation: Biodiversity loss.
    My name is Andy Treharne, and as Senator Capito said, I 
serve as the Senior Director of External Affairs for CSF, the 
Congressional Sportsmen's Foundation. Established in 1989, CSF 
works with the Congressional Sportsmen's Caucus, the largest, 
most active bipartisan caucus on Capitol Hill.
    Before discussing modern day challenges and solutions for 
addressing biodiversity, it is important to take a moment to 
put things into historical perspective.
    Over 80 years ago, the hunting community led the charge to 
establish excise taxes on firearms and ammunition directed 
specifically to conservation purposes.
    With the subsequent enactment of similar excise taxes 
generated by anglers, boaters, and archery enthusiasts, revenue 
from sportsmen's licenses is permanently linked to 
conservation, laying the foundation for what is now the unique 
American system of conservation funding. A user pays public 
benefits program that is the financial backbone of conservation 
in our country.
    Totaling nearly $1.1 billion for fiscal year 2021, plus 
millions of dollars annually in license and permit fees, these 
ongoing investments benefit the American public in a variety of 
ways, ranging from recreational access to increased wildlife 
populations to wetland conservation that filters our water and 
improves our soil quality.
    Despite the unparalleled success of the user pays public 
benefit system, America continues to experience challenges for 
biodiversity conservation. It is critical that we take steps to 
invest in 21st century funding mechanisms to meet the 
challenges before us today. In doing so, we must also maintain 
the integrity of existing funding mechanisms, often generated 
by sportsmen and women that contribute to biodiversity 
conservation.
    While much of the focus recently has been on declining 
biodiversity, our community continues to contribute positive 
results for fish and wildlife. For example, North American 
waterfowl populations have increased by 56 percent since 1970, 
a nod to highly successful conservation programs such as the 
North Americans Wetlands Conservation Act, NAWCA, and Federal 
and State duck stamps. We thank the Committee for their work to 
reauthorize NAWCA through the America's Conservation 
Enhancement, or ACE Act, last year.
    Yet we still face significant challenges. Forest birds and 
grassland birds lack a funding source, such as NAWCA or duck 
stamps. Consequently, these bird populations have declined 
roughly 30 percent during the same time waterfowl populations 
increased significantly. However, declines in biodiversity are 
not limited to bird populations.
    In 2000, Congress recognized this challenge and created a 
new sub-account within the Pittman-Robertson Act known as the 
Wildlife Conservation and Restoration Program, which requires 
States to develop federally approved State wildlife action 
plan, or SWAPs. However, Congress currently provides 
approximately only 5 percent of the funding needed to implement 
these plans that are essentially road maps for biodiversity. 
Congress has the ability to address this disparity by pursuing 
solutions, such as the Recovering America's Wildlife Act that 
provides States with the resources necessary to implement these 
plans that States have been crafting at Congress's request.
    We also have opportunities to support biodiversity by 
investing in solutions that support wildlife movement. As land 
use changes disrupt historic landscapes and limit the movement 
of enough individuals within a species population, many of 
these species' ability to migrate to habitat conditions that 
are capable of meeting their resource needs becomes impaired.
    We applaud the Committee for its bipartisan work last 
Congress and the development of the ATIA, specifically Section 
1125, that would address the approximately 2 million wildlife 
vehicle collisions annually while enhancing habitat 
connectivity through existing programs.
    There are similar opportunities to support aquatic resource 
conservation through programs like the Forest Service's Aquatic 
Organism Passage Program and NOAA's Habitat Restoration Grants.
    Supporting programs that are built on collaborative 
conservation is also needed. Given that many of our most 
significant biodiversity and species conservation opportunities 
are found on privately owned lands, we believe there are 
opportunities to better incentivize landowners to participate 
in voluntary programs, such as those authorized and funded 
through the Farm Bill's conservation title, Joint Ventures, the 
Partners for Fish and Wildlife program, among others. Newer 
programs such as Utah's Watershed Restoration Initiative and 
the Southeast Deer Partnership are also generating positive 
results.
    In summary, CSF thanks the Committee for holding a hearing 
on this important issue and for the opportunity to testify. 
Increasing efforts to address biodiversity loss is not only 
beneficial for fish, wildlife, and plants, but is also good for 
the American economy, sportsmen and women, and rural 
communities.
    CSF encourages the continued support for existing programs 
that play a role in addressing these challenges, as well as 
support for new programs, such as the Recovering America's 
Wildlife Act.
    Thank you.
    [The prepared statement of Mr. Treharne follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you.
    Just for the record, how do you pronounce your last name, 
Andy?
    Mr. Treharne. That's a complicated question, Mr. Chairman. 
My parents always told me that it was ``tree-harn,'' but every 
time I meet somebody from southern England or Wales, they told 
me it's pronounced ``truh-harn,'' so I think my parents are 
probably incorrect.
    Senator Carper. All right. They usually know best, but we 
are delighted that you are here. Thanks so much.
    I understand Senator Capito said you worked for a Senator 
from Colorado, Wayne Allard?
    Mr. Treharne. Yes, Mr. Chairman.
    Senator Carper. From my recollection, he was a veterinarian 
and still is, right?
    Mr. Treharne. Correct.
    Senator Carper. He would say to me, Senator Capito, that he 
takes care of the Lord's critters on this planet. That is what 
he said.
    Welcome. You worked for a good guy.
    Next, I think we are going to recognize Senator Capito 
again, and I think she is going to introduce maybe our final 
witness, John Schmidt. Is it John Schmidt from?
    Senator Capito. John Schmidt.
    Senator Carper. John Schmidt from, is he from West 
Virginia, or which county?
    Senator Capito. Elkins.
    Senator Carper. Elkins, my God, where my mom was born. 
Guess it doesn't get any better than that. We are probably 
related.
    Senator Capito. Might be, might be.
    I am pleased to introduce my friend, John Schmidt. We 
worked together for the last several decades, actually.
    He currently serves on the Board of Directors of 
PARTNERSCAPES, an organization with agencies, non-profit 
organizations, and policymakers to collaborate on conservation 
projects through voluntary, incentive based public and private 
programs. He recently joined the U.S. Fish and Wildlife 
Partners for Fish and Wildlife Program to control invasive 
species and promote pollinator habitat on his own land.
    John, whose background is in biology, recently finished a 
lengthy tenure at U.S. Fish and Wildlife, having worked for the 
agency for 32 years in the Elkins, West Virginia, field office. 
In that capacity, he worked closely with my team on 
conservation and permitting issues.
    It is always a pleasure having West Virginians testify 
before the Committee.
    We are both very glad that we have our visitor center up in 
the Canaan Valley Refuge that U.S. Fish and Wildlife helped us 
initiate and also cut the ribbon on. It is a beautiful spot.
    John's important work with PARTNERSCAPES and the Partners 
for Fish and Wildlife Program shows he understands the 
importance of landowner input on effective conservation 
policies.
    So, I look forward to hearing your testimony, John. Thanks 
for joining us.

                  STATEMENT OF JOHN SCHMIDT, 
               BOARD OF DIRECTORS, PARTNERSCAPES

    Mr. Schmidt. It is a pleasure to speak to you, and I would 
like to thank Chairman Carper and you, Senator Capito, Ranking 
Member, and the other Senators and their staff for making this 
possible today.
    Specifically, today, I would like to speak on the benefits 
of restoring the Fish and Wildlife Service's Partnership Fish 
and Wildlife Program and the great work it has done nationwide 
to keep private landowners working on their land and benefiting 
a multitude of native species. I have included three handouts 
today to provide further information.
    I am privileged to represent West Virginia on the 
PARTNERSCAPES Board of Directors. PARTNERSCAPES is a national 
organization that connects private landowners with partner 
organizations to improve conservation efforts. The organization 
is led by landowners who want to conserve and sustain the land 
for their families and their communities, as well as the 
natural resources and wildlife that inhabit their respective 
landscapes.
    What we hear time and time again is that more government 
programs need to be like the Partners Program. Partnerships are 
effective in bringing landowners and agencies together for a 
common purpose. When each party has skin in the game, joint 
projects are more successful. This is no different with our 
Partners projects.
    Initially, in West Virginia, our Partners Program got off 
to a slow start, as it mainly offered technical support and 
funding to restore wetlands, whereas you can imagine, in the 
Mountain State, most of our landowners prefer their already 
drained wetlands to stay that way so they could grow crops.
    We picked up speed, however, and projects, and acres and 
miles of habitat when we began offering technical assistance to 
build fences to help keep cattle out of streams and forests. We 
provided alternative water sources so the cows didn't need to 
get into the streams, which improved their health and weight 
gain. The landowners also ended up with better grazing 
management, and taxpayers ended up with cleaner water, higher 
species diversity, and so on.
    The Partners Program has two primary goals, one of which is 
to improve endangered species habitat and populations. The 
other is to assist the National Wildlife Refuge with their 
mission. These two priorities often overlap.
    Fast forward to my own experience: In this year, in 2021, 
my wife and I are fortunate to own some working forestland in 
Randolph County, not too far from Elkins. We purchased the land 
in 2018 and manage it for a multitude of plant and animal 
species. The majority of the forest supports a healthy stand of 
mature red oak, white oak, maple, and poplar.
    Unfortunately, we have about 10 acres of young forest that 
the understory is dominated by a number of invasive shrub 
species, like Japanese barberry, autumn olive, Tartarian 
honeysuckle, and of course, multi-flora rose. These invasives 
have crowded out and prevented the recruitment of native trees 
and shrubs and has diminished the biodiversity on that 10 
acres.
    What do you do? Of course, I called my former colleagues at 
the U.S. Fish and Wildlife Service and the USDA to see if their 
programs could assist me as they have assisted countless West 
Virginians with eliminating the threat to forest health from 
these invasives.
    While we were meeting onsite, the agency folks also pointed 
out the benefit of adding some pollinator habitat, and we are 
in the process of creating a one acre plot of wildflowers and 
other forbs to benefit pollinators such as bees and moths and 
things like that. This addition will also benefit a multitude 
of game and non-game species and improve species diversity on 
my land.
    The Partners Program in West Virginia has restored the 
following: Upland acres that have been restored and enhanced, 
nearly 30,000 acres; wetland acres restored and enhanced, 733 
acres; stream miles restored and enhanced, 138 miles, a lot of 
that in the Upper Potomac; stream miles reopened to fish 
passage, 491. That is from three dams removed on the West Fork 
River.
    What next? To date, the West Virginia Partners construction 
crews have completed over 2 million feet of livestock exclusion 
fence. The demand remains strong and should continue for the 
future.
    Demand for instream restoration to restore fish and aquatic 
passage remains high. Not only will this increase population 
resilience in the face of a changing climate; it will prevent 
stream bank erosion, which adversely affects water quality and 
exacerbates downstream flooding.
    Several low head dams in West Virginia are utilized in 
conjunction with water intakes for municipal water sources. 
Many of these systems now need costly repair, and key 
components are difficult to replace.
    The aging infrastructure creates an imminent risk to 
communities across the State. New technology exists for water 
intake structures that are more reliable and boost capacity 
without the need for expensive and dangerous dams. Removing the 
Hartland Dam in Clarksburg, for example, would create savings 
for the Water Board and its rate payers. More importantly, it 
would promote a healthy and diverse natural flowing ecosystem 
and expand local business opportunities by restoring safe 
access to river recreation.
    Seventy-five percent of fish and wildlife species depend on 
private land for their survival. With 2.2 million square miles 
of land in private ownership, conserving and enhancing habitat 
for migratory birds, endangered species, and other Federal 
trust species, as well as the natural infrastructure, is only 
possible through partnerships with private landowners. The 
Partners Program is a model for bringing private landowners and 
government agencies and funding together to solve shared 
concerns.
    Thank you.
    [The prepared statement of Mr. Schmidt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Mr. Schmidt, thank you very much. Give our 
best to Elkins.
    I think I will start off by asking my first question of Dr. 
Gerber.
    Dr. Gerber, are you still with us?
    Ms. Gerber. Yes, I am.
    Senator Carper. Oh, good. Thank you.
    Dr. Gerber, your testimony mentions the impacts of climate 
change on biodiversity decline and references an in depth 
article entitled Climate Change and Ecosystems: Threats, 
Opportunities, and Solutions. We are interested in learning 
more about the linkages between climate change and biodiversity 
loss, particularly with respect to solutions.
    Can you take a shot at that question, please? Thank you.
    Ms. Gerber. Sure. Thank you, Mr. Chairman, for the 
question. Climate change, as many of you know, has impacts on 
both the abundance and distribution of biodiversity. We have 
good evidence that climate change leads to range shifts in 
species. Species must adapt to the warming temperatures, and in 
some cases, are unable to adapt, so we are seeing a broad scale 
shifting of species ranges. In some cases, species are unable 
to adapt, and we are seeing increased risk of extinction for 
those species.
    Some of the consequences that we have seen have to do with, 
for example, ocean warming and ocean acidification are great 
examples of some of those consequences. We also, for example, 
recently with the California wildfires, have seen recent 
frequency and intensity of these extreme events cause by 
climate change.
    The things that climate change, in terms of posing a risk, 
can provide us with, taking effective action includes reducing 
warming, and this would include reducing emissions, food waste, 
promoting plant based diets, alternative energy, and 
reforestation, particularly in tropical areas.
    We can also begin to mitigate and adapt by establishing 
wildlife corridors to protect networks of habitat, and in urban 
landscapes, to establish green spaces.
    The last thing I want to mention regarding climate change 
is that like many of the comments that have been made 
throughout today's hearing, climate change not only poses a 
risk for natural systems, but it also impacts biodiversity 
fundamentally, which indirectly influences human well being, 
specifically our ability to provide food, pollination, 
medicine, flood protection, recreational opportunities, 
drinking water, clean air. So, there is an inextricable link 
between climate change and biodiversity.
    Senator Carper. All right, Dr. Gerber. Thanks very much for 
your response to that.
    My next question is for Mr. Sullivan, and then I am going 
to yield to Senator Capito.
    Mr. Sullivan, you shared some compelling examples today of 
how habitat conservation plans have improved outcomes for 
species and efficiency for infrastructure projects.
    I am always looking for win-win situations. This appears to 
be a real win-win situation. Habitat conservation funding is 
more prevalent, as you know, than it once was, but arguably, 
habitat conservation plans are still an under-utilized tool. 
Briefly, what do you think are the primary challenges 
preventing more widespread use of habitat conservation plans, 
and second, how might Congress be able to help address those 
challenges?
    Mr. Sullivan.
    Mr. Sullivan. Sure. Thank you, Chairman. I think the 
challenges are that they are not necessarily well known as a 
tool, even sometimes within the Service itself. It is embedded 
within the Endangered Species Act, Section 10, and many times, 
there is just not the promotion of them like there should be as 
a win-win tool, as you described.
    I think there is a lack, sometimes, of funding and staffing 
for this program at the U.S. Fish and Wildlife Service, and I 
do think if there was more funding, in particular for staff 
within the regions, and sort of an effort by the Service to 
kind of market these out to stakeholders, because I do believe 
they are a very positive win-win solution.
    There are plenty of examples that were highlighted in my 
testimony about highway projects and so forth and so on. We are 
stuck between negotiations between project proponents and the 
Fish and Wildlife Service and others, but got unstuck because 
of the Section 10 program, which is about finding a balance and 
a compromise.
    Senator Carper. Thanks for your response to that question.
    Senator Capito.
    Senator Capito. Thank you.
    Mr. Treharne, I wanted to ask you about, I mentioned in my 
opening statement, President Biden's America the Beautiful 
Initiative, or 30 by 30, which sets a goal of conserving 30 
percent of U.S. lands and water by the year 2030. I was 
wondering if the outdoor recreation, particularly the hunting 
and fishing community, was involved in the development of this 
report, and if not, what kind of suggestions, or what kind of 
caution flags would you be presenting?
    Mr. Treharne. Thank you, Ranking Member Capito. The answer 
to your question really requires a little bit of history. We 
started to hear about 30 by 30 early in 2019 through State 
legislative actions. Those were particularly concerning, for 
some of the reasons you outlined in your opening remarks: Lack 
of definition, creating a lot of uncertainty for those in our 
community.
    At that time, we started looking into the 30 by 30 
Initiative, and realized that at its most basic level, there is 
a lot in common with the conservation work that sportsmen and 
women do. However, the devil is in the details.
    So the Congressional Sportsmen's Foundation worked with a 
number of partners which now total nearly 50 NGOs that are a 
part of a group called the Hunt Fish 30x30 Coalition. Through 
that entity, we have been proactively engaging the 
Administration to make sure that they are aware and understand 
our perspective on conservation, things like the importance of 
private land, non-regulatory approaches, voluntary 
conservation, maintaining the integrity of sportsmen driven 
conservation dollars, revenue.
    Really, we came to a decision point because with that 
uncertainty surrounding 30 by 30 and the lack of definition, we 
either could stand on the sidelines and let that happen, and 
let others define conservation on behalf of our community. But 
we decided to come to the table and create some space for 
hunters and anglers to talk about how we support conservation 
and some of the things that we have learned over the last 80 
years since we have been doing it.
    Senator Capito. Thank you, very complete answer. I 
appreciate that.
    Mr. Schmidt, you have mentioned a couple things in you 
testimony, particularly on your own private land ownership, but 
I know in your capacity at U.S. Fish and Wildlife, you dealt a 
lot with private land ownership. As you know, as West 
Virginians, this is very much in our DNA in terms of protecting 
our own land and making sure that these solutions that we find 
are driven by what we as private landowners can contribute and 
preserve.
    So I guess my point in bringing that up is, in order to 
improve the fish and wildlife habitat, you need to have the 
flexibility, I think, for the landowners. So why would you 
think, that with your Partners for Fish and Wildlife, you said 
it needs to grow, would be important in addressing this 
flexibility issue when you are looking at biodiversity loss?
    Mr. Schmidt. Thanks for that question, Senator Capito. The 
flexibility is important because every landowner has different 
goals, and one size doesn't fit all, as we found out when we 
were just doing wetland restoration.
    We have modified the program nationwide to include invasive 
species treatment, dam removals, instream work, as well as 
livestock exclusion and grazing management.
    Some of the best work we do is actually to put better 
grazing systems on the land so that the farmer makes more 
money, but the species diversity remains intact. As a matter of 
fact, it often improves when it comes to grassland species.
    Landowners themselves, they want to help, and that is why 
they've contacted us or the USDA, but it also has to work for 
them and their bottom line. In some cases, they want to pass 
this land on to the next generation, and they want to leave it 
in good shape.
    Senator Capito. I think that is a good point. I think, in 
some ways, where we have kind of gotten hung up a little bit on 
this is, a lot of times, I think our local landowners and our 
folks who have been in the communities for years really are the 
best stewards of their own properties and know the best way to 
move forward.
    When you start pushing down mandates from Washington and 
other places that don't fit with the local conservation plan or 
envisionment for your own property, that is where it really 
starts to rub people the wrong way. I know we went through this 
with the wilderness designation several years ago in West 
Virginia, and really ran up against a lot of people at the same 
time.
    We have heard a lot about ESAs. If there were a tidal wave 
of potential ESA listings around the country, what do you think 
that could mean in terms of economic development, environment, 
and also for the Fish and Wildlife Service itself?
    Mr. Schmidt. Well, for economic development, it could slow 
things down, because currently, the staffing in a lot of our 
field offices is not high enough to meet the current demand, so 
if we had more listings, then we would need more horses to pull 
the wagon, OK? It is not--we are not seeing that in the budget, 
and the Partners Program is kind of like the, it is the 
restoration wing of the Endangered Species Program, and our 
endangered species biologists tell us where we need to work, 
and then we do that.
    We also work on precluding the lists that need species, so 
for instance, monarch butterflies. That was one that was due to 
be listed, had a strong potential, and we ended up doing enough 
work with private landowners and highway departments and such 
that we were able to preclude the need to list that animal.
    Right now, the Service does not have the horses it needs to 
pull that wagon, if we have a regulatory approach. I think we 
need to continue to work with private landowners. I know 
PARTNERSCAPES is very concerned about 30 for 30 and what does 
it mean, for the reasons you pointed out. We are trying to let 
folks know that there are a lot of private landowners who have 
already done a lot of good work to conserve habitat, and we 
want to make sure that it is counted.
    Senator Capito. Right. I appreciate it, and thank you.
    Senator Carper. Thanks, Senator Capito.
    I think Senator Ben Cardin from Maryland may have joined us 
from Webex, my Delmarva buddy.
    Senator Cardin, are you there?
    Senator Cardin. Well, thank you, Mr. Chairman.
    Let me thank all of our witnesses. This has been an 
incredibly important hearing.
    Biodiversity is critically important to the Chesapeake Bay, 
which I know the members of this Committee will not be 
surprised to hear that I will mention during this hearing. 
Biodiversity, we have 3,600 different species that live in the 
Chesapeake Bay. We have over 11,000 miles of coastline on the 
Chesapeake Bay, and as a result of more severe weather 
conditions, we have seen a challenge on runoff that has 
affected the quality of the Chesapeake Bay and its ability to 
support biodiversity. We have real challenges.
    I just really want to, if I could, Dr. Gerber, focus on one 
of those issues, which is wetlands. We have had some 
conversation about this. We have lost a lot of wetlands in the 
Chesapeake Bay through development and through sea level 
increases.
    We have restoration programs. I want to mention just two, 
and then get your reaction as to what else we should be doing.
    We have reclaimed Poplar Island in the Chesapeake Bay, 
which was at one time, a habitable island which almost totally 
disappeared. We have done that through an environmental 
restoration, which includes the use of dredged materials to 
rebuild that island, and now supports biodiversity. It is a 
wonderful place to visit, but it also serves as an economic 
engine for us being able to keep our channels open in the 
Chesapeake Bay.
    The second project I want to mention is what is happening 
at Blackwater. Blackwater Wildlife Refuge is one of the great 
refuges in this region, located on the Eastern Shore of 
Maryland. It has lost a lot of its wetlands over the years as a 
result of sea level rises and other causes, but restoration 
efforts have been successful where we used dredged material to 
rebuild wetlands, and it has worked. It just costs some money 
to do this; to transport the dredged material to Blackwater is 
a little bit more expensive than putting it someplace else.
    Poplar Island environmental restorations cost more up 
front, but they save us money over a longer period of time.
    I want to get your view of how important it is for us to 
restore islands such as Poplar Island or Blackwater Wildlife 
Refuge in an effort to have habitat that is critically 
important for biodiversity.
    Ms. Gerber. Thank you, Senator Cardin. Wonderful work that 
you are leading in the Chesapeake Bay. I will add that I am by 
no means an expert on this region, but I will add a few 
comments.
    I think my overarching comment is that the experience in 
the Chesapeake Bay demonstrates that conservation works, and 
when resourced, we can actually see impacts. I think it also 
underscores the importance and the consequences of taking a 
collaborative, inter-agency approach to working together to 
achieve these outcomes.
    Third, I think it underscores the importance of funding the 
programs that we strategically define as important. Regarding 
the Chesapeake Bay in particular, as you have discussed, the 
Bay faces a number of challenges, including excess nutrients, 
sediment from non-source pollution, invasive species, climate 
change.
    Restoration is definitely--I agree that it is a viable 
approach to be taken here, because it increases the diversity, 
the population and distribution, and diversity of endangered 
species. It also enhances landscape connectivity and benefits 
human well being because, as we have discussed previously, 
healthy ecosystems, clean water, air, and soil, are good for 
both people and wildlife.
    A number of Federal restoration projects led by many 
Federal agencies, including NOAA, EPA, and Fish and Wildlife 
Service, have restored coastal areas in the Bay that have been 
impacted by human development, and they have seen the return of 
wildlife that has previously been believed to have been lost.
    Some of the most recognizable restorations in and around 
the Bay have been those of oyster reefs. I have always been 
impressed with oysters, which are natural filter feeders and 
can clean water. The factoid that I like to talk about with 
oysters is that each adult filters 50 gallons of water per day, 
providing food and habitat for one of the region's most 
valuable fisheries.
    So I thank you, and I support the work you are doing in the 
Chesapeake Bay.
    Senator Cardin. Mr. Chairman, I would invite members of the 
Committee to join me to visit Poplar Island and see, it is not 
far from here, and see first hand how we have restored 
biodiversity in reclaiming the Bay. The Army Corps is 
supporting the mid-bay, which is the next chapter of 
environmental restoration with dredged material. It is a real 
success story.
    Thank you very much, Mr. Chairman, and thanks to the 
witnesses.
    Senator Carper. That is great news, Ben. Thank you, and Dr. 
Gerber, thank you for your closing comments there.
    We have been joined by Senator Whitehouse and Senator 
Padilla. I think they are both with us on Webex.
    Sheldon, I think you are next, and then Senator Padilla 
will be after him, after Senator Whitehouse.
    Sheldon, go ahead.
    Senator Whitehouse. Thank you, Chairman.
    Chairman Carper and I both also sit on the Finance 
Committee, and I just want to flag for any colleagues who may 
be interested that as we go through trying to reform our tax 
code to get rid of some of the crummy ways that it has been 
used to help special interests at the expense of regular 
taxpayers, if we can help reinforce the advantages for durable 
conservation easements, I am all in on that and would love to 
work on that in bipartisan fashion.
    Mr. Treharne, your testimony talks about protecting river 
habitat by restoring dams and improving culverts in some of the 
manmade interruption of river flow. We are obviously working on 
this a lot in Rhode Island. We have a lot of small dams, and I 
have been working for years to try to figure out a solution to 
efficiently allow States to address the problem of particularly 
small dams, which in a lot of places, aren't really owned by 
anybody any longer.
    You have to go through a process that is not that different 
from damming the Columbia River to remove a dam on a little 
local stream or river, and you have to deal with a whole lot of 
title and liability issues. We have got to work on a way to 
solve that.
    I think we have a way to solve that, but we just haven't 
been able to get it done yet. So I would like to invite you to 
help us solve the problem of how to remove small and sometimes 
dangerous, usually obsolete dams that obstruct so many of our 
important rivers. Are you in for that?
    Mr. Treharne. Absolutely, Senator. One thing that I think 
this Committee can take a lot of credit for is the passage of 
the National Fish Habitat Partnerships, which will support the 
National Fish Habitat Action Plan moving forward. I think those 
types of groups would be very interested in talking with you. I 
would be happy to connect you with them and see how their 
mission overlaps with what you are trying to do.
    Senator Whitehouse. Good. This is my longest lasting 
frustration in the Senate. Sometimes little things can take a 
long time to get done, so I look forward to working with you.
    Dr. Gerber, you were good enough to mention oceans, and 
specifically, coral reefs. Could you just give us, for the 
record of the Committee, an overview of the biodiversity 
calamities that are happening, in many respects, out of our 
human sight in the oceans, where we are visitors and not 
customary inhabitants? Particularly if what is predicted for 
coral reefs happens, which is that ocean acidification and 
ocean warming, driven by fossil fuel emissions, more or less 
wipes them out, what that does to the pace of biodiversity 
collapse in the oceans.
    Ms. Gerber. Thank you, Senator Whitehouse, for the 
opportunity to talk about reef systems, which is actually my 
area of expertise.
    Regarding the issue of climate change and coral reefs, we 
see a number of impacts. One is, as you mentioned, the coral 
structures are unable to adapt to the increase in temperature, 
so what we are seeing is widespread bleaching of coral reefs.
    In addition to the loss of the coral reefs themselves, we 
are seeing a loss of the structure that provides habitat for 
entire ecosystems' biodiversity.
    The other thing that I think is relevant to bring up here 
is that in terms of impacts of climate change on marine 
systems, we are also seeing impacts of climate change on the 
extent to which organisms move in the ocean. With warmer 
temperatures, we see more rapid metabolic processes, and so 
less movement, for example, between larval stages occurs. This 
has broad implications for the way we manage the ocean, because 
these marine organisms have adapted to having this life cycle 
where the larvae live in different areas than the adults, and 
that provides some resilience to extreme events.
    So, by this reduction in movement patterns, we actually are 
seeing less resilience in marine systems.
    Senator Whitehouse. So, in a nutshell, biodiversity in the 
oceans is a serious problem, and it is going to get rapidly 
worse if coral reefs vanish as a piece of the environmental 
infrastructure.
    Ms. Gerber. Absolutely.
    Senator Whitehouse. Great. Thanks for helping us remember 
oceans, and thank you, Chairman, very much.
    Senator Carper. Senator Whitehouse, thank you for helping 
us remember the oceans as well.
    Senator Padilla, I believe might be next, and Senator 
Padilla, I think, is joining us on Webex.
    Alex, are you there?
    Senator Padilla. Yes, thank you, Mr. Chair. I want to raise 
a couple of issues and questions with Mr. Sullivan from 
California.
    You highlighted, Mr. Sullivan, in your testimony the 
proposal to create the Western Riverside County National 
Wildlife Refuge in Southern California, east of Los Angeles. 
California, as you know, is one of the most biodiverse places 
in the world, with thousands and thousands of species. As you 
noted, the proposed refuge would directly protect 147 species, 
33 of which are threatened or endangered.
    This area of Southern California is also in need of 
sustainable development. It is a densely populated area with 
inequitable access to nature and open spaces, particularly for 
working class communities and communities of color.
    So I am hoping you can expand on your testimony and share 
with us your thoughts on how the proposed wildlife refuge can 
help us meet multiple policy priorities here. No. 1, helping 
protect biodiversity of the area, which you know has multiple 
environmental benefits, while also enabling responsible and 
sustainable development, and third, helping improve not just 
access to nature and wildlife, but more equitable access to the 
outdoors.
    Mr. Sullivan. Yes, thank you, Senator, for the questions 
and the opportunity to respond. Those are great questions.
    It is complicated when you are trying to balance all these 
different, biodiversity versus public access versus affordable 
housing, and a lot of the challenges that we face in California 
and other parts of the country. I agree with you that 
sustainable development is the goal, and how we plan 
responsibly is key.
    Some of the old development models haven't worked very 
well. They were autocentric and focused on people sprawling out 
on the landscape. So how do we balance all this?
    I think it starts at the local level. The locals know best 
on where to define where development can go. Development that 
is avoiding those biological hotspots, and then identifying 
those biological hotspots and protecting them, which is what 
this proposed refuge designation is proposing.
    The locals and the local scientists and the implementers of 
the West Riverside HCP have identified this area as important 
to achieving the objectives of their habitat conservation 
plans, so the locals have sort of worked with the Federal 
Government to identify this area.
    I think the way the Feds can help is by approving this 
designation, and also for increasing funding through the ESA 
Section 6 program to assist HCPs across the country protect the 
Nation's biodiversity hotspots.
    With access, parts of the refuge could be open to the 
public, interpretive exhibits and tours can educate visitors in 
the importance of biodiversity. Refuge staff and local 
biologists could implement and adopt a school program to get 
kids involved in nature. Residents and schoolchildren can help 
at the refuge volunteering for habitat restoration and projects 
and general maintenance.
    So it is basically trying to empower the community to adopt 
the refuge and work collaboratively. The refuge doesn't 
necessarily have to be a place that is off limits to people and 
how you can kind of integrate the community with the refuge and 
the refuge with the community. That is sort of the intent of 
sustainable development anyway.
    To echo some of the things that John Schmidt was saying 
about working with private landowners, we do that all the time 
here. We work with ranchers, and they are an important 
component of implementing a local approach to conservation. 
Then on the other side, working with local municipalities to 
encourage them to develop more sustainably. Thank you.
    Senator Padilla. Thank you.
    Thank you, Mr. Chair. Much to follow up on.
    Senator Carper. Senator Padilla, great to be with you again 
for the second time today, and thank you. I look forward to 
seeing you on the floor later when we vote.
    We have been joined earlier today by Senator Ernst, and she 
serves on a number of committees as we all do. I appreciate 
very much her stopping by, although she was unable to stay 
until we had an opening for questions, but we thank her for 
coming.
    Senator Boozman was also here, and he is co-chair of the 
Senate Caucus on Recycling and an active member of this 
Committee. We appreciate him stopping by.
    I thank Senator Kelly for joining us and introducing one of 
our witnesses.
    I have a couple questions to go; when I get to the end of 
these questions, if someone else has joined us, either remotely 
or in person, I will yield to that Senator. That will be about 
5 or 10 minutes from now.
    A question, if I could, for the entire panel. The subject 
deals with the importance of Federal funding. Each of you, in 
your testimony, talks about the importance of Federal funding 
for conservation programs, including for the North American 
Wetlands Conservation Act for the Partners for Fish and 
Wildlife Program, and for implementation of our Nation's 
wildlife protection laws.
    Again, a question for each of you, and the question is, 
would you each elaborate on the importance of Federal funding 
for wildlife conservation?
    The second part of the question is, what do we stand to 
lose when we underfund these programs? Let me repeat that. 
Would you each elaborate on the importance of Federal funding 
for wildlife conservation? Second half of the question, what do 
we stand to lose when we underfund these programs?
    Ms. Gerber, would you like to go ahead?
    Go for it, Dr. Gerber.
    Ms. Gerber. Thank you, Mr. Chairman, for the opportunity to 
comment on this important issue of funding for conservation.
    Globally, we need, best estimates indicate that we need 
approximately $76 billion to protect biodiversity. At present, 
this is less than .01 percent of the annual GDP. In the U.S., 
the annual costs for recovering endangered species that we have 
estimated from reviewing of recovery plans is approximately 
$1.2 billion per year.
    At present, approximately 20 percent, only 20 percent, is 
allocated to the agencies for engaging in recovery planning 
efforts. Just for context, this 20 percent is approximately 1 
percent of the annual cost for food waste in the U.S.
    I think a theme that we have discussed throughout the 
hearing is that biodiversity conservation programs will work if 
the agencies responsible for implementation are actually 
funded. So it is of utmost important that we begin to provide 
adequate funding to these agencies.
    Furthermore, recognizing that there are multiple priorities 
with Federal funding, there are scientific approaches that 
allow us to make transparent and objective decisions about 
which species are at highest priority to protect, whether this 
be species that have a high chance of recovery or species that 
are really on the verge of extinction.
    Also, I think that adopting a prioritization approach to 
facilitate transparent decisions, employing this return on 
investment approach can really enhance the outcomes that we are 
seeing in the U.S. regarding biodiversity conservation.
    To your question about what we stand to lose, again, 
recognizing that there are many competing priorities that the 
Federal Government is faced with. I think we underscored the 
importance of biodiversity conservation to our economy and our 
well being.
    Balancing these priorities, I think it is really important 
to think about or to recognize that when you lose a species, it 
is forever, so we can't go back. We can't go back. If we lose a 
species, that is it.
    So I think we need to sort of raise the bar on and how we 
are currently managing endangered species so that they are 
adequately funding these programs, given the current crisis 
that we are faced with. Thank you.
    Senator Carper. Thank you, ma'am.
    Just a really quick, you can just give me a yes or no 
answer, but your testimony and others offered today also 
mentioned the importance of collaboration between all levels of 
government and stakeholders. Would you agree, Doctor, that 
robust Federal funding helps our natural resource agencies be 
better partners?
    Ms. Gerber. Absolutely, and I will give you an example of 
that.
    I worked for about 5 years with the U.S. Fish and Wildlife 
Service to develop a prioritization approach to facilitate 
decisionmaking around which species we should implement 
recovery actions for, given the limited budgets. As we have 
discussed, these agencies are faced with backlogs of candidate 
species. They simply don't have the resources to take the 
actions or engage in any kind of strategic or prioritization 
exercises.
    Taking this collaborative approach, of course, between the 
scientific and academic sectors, private sectors, and 
government sectors to try to identify these collaborative, 
inclusive processes for how we move forward with addressing 
this crisis are absolutely essential.
    I would like to underscore my experience in this project 
that I just mentioned with working with Fish and Wildlife 
Service. We spent years working on an approach called the 
Recovery Explorer Tool that is now published on our Website. It 
is fully available. It allows for transparent decisionmaking, 
and the agency, the Fish and Wildlife Service, is so 
understaffed that they don't even have the ability to take the 
tool on to use it.
    So despite the desire of many conservation biologists and 
agency scientists to work together to solve these problems, 
there are such scarce resources that we are not able to move 
the needle forward. So with additional funding, agencies would 
have the capacity to actually be ahead of the game in 
addressing this problem, as opposed to drinking out of a fire 
hose, which is the current situation.
    Senator Carper. All right, thank you. Thank you.
    Mr. Sullivan, same series of questions. Would you elaborate 
on the importance of Federal funding for wildlife conservation, 
and second, what do we stand to lose when we underfund these 
programs?
    Mr. Sullivan. Yes, thank you, Senator--Chairman.
    I would echo what Dr. Gerber said, so I will address the 
second question first. We stand to lose a lot, and once it is 
gone, it is gone.
    We don't even understand what the consequences of those 
losses are. The ecosystem is intertwined; species are very 
dependent upon each other. To make it even anthropocentric, 
position is with plants, a lot of the plants could be the 
future cure for cancer, so when we lose these, they are gone 
forever.
    To your first point, yes, funding is key. I understand 
there is a lot of pressures on the Congress and the 
Administration and how to allocate resources. I feel for too 
long there has been a lack of investments in nature's 
infrastructure. I know this Committee deals both with the 
physical built environment as well as the natural environment, 
and I think there has been an underinvestment in both areas.
    So from our standpoint, funding for staffing, as I said in 
an earlier response to a question, for Fish and Wildlife is 
critical. It is also funding for land acquisitions, management; 
a lot of times, management is underfunded. There isn't money to 
do invasive species management. There isn't money for the 
restoration programs that some of the speakers have spoken to 
about today.
    So funding those things will help with, hopefully, stemming 
some of the biodiversity loss from a Section 6 perspective, 
which helps fund HCPs. We certainly would like more funding in 
that program, which has been underfunded for decades now, for 
helping HCPs with land acquisitions.
    There is also a lot that can be done to improve our highway 
systems for wildlife, and funding for wildlife crossings, both 
land bridges and undercrossings.
    There are examples across the United States and the world. 
The most famous that a lot of people know about, is Highway 93 
in Montana and Highway 90 going through the Cascades. There are 
projects here, and looking at doing improvement of wildlife 
connectivity over Highway 101 in California. There are 
certainly the examples of Banff up in Canada.
    So those are areas where I think when we are funding 
infrastructure, it is also how do we fund infrastructure for 
wildlife, how do we provide a value for ecosystem services, and 
I appreciate the question. I am in the business of 
conservation, so obviously I am asking you for funding for 
these things, but I appreciate this opportunity to make this 
pitch.
    Senator Carper. Thanks, Mr. Sullivan.
    Andy Treharne, would you please respond to the same two 
questions I have asked of our other witnesses? And here is the 
question: Would you please elaborate on the importance of 
Federal funding for wildlife conservation; and second, what do 
we stand to lose when we underfund these programs?
    Mr. Treharne. Thank you, Chairman Carper. I think the 
importance of Federal funding is wide ranging, but I also think 
it deserves some context.
    There are a lot of State dollars that go into conservation, 
as well as private sector dollars. But the reality is that the 
Federal Government investments in conservation and in the 
environment have not kept track with the growth of the Federal 
Government in other areas.
    Function 300, which is the baseline for the environment and 
conservation and outdoor recreation programs and Federal 
budget, is, I think between 1980 and 2010, overall Federal 
spending grew a 130 percent.
    But Function 300 grew something like 2.1 percent during 
that same time period. So I think that illustrates some of the 
challenges we are dealing with and competing priorities that 
other witnesses have mentioned.
    In terms of consequences, I think there are a lot of 
consequences. One is, in addition to the ecosystem services and 
the potential loss of those that benefit people, I think we 
risk losing a human connection to nature and understanding it. 
I get that through hunting and fishing; others get it different 
ways. But it has been part of the nature of human beings for a 
very long time, and I am not sure we will be pleased with the 
results without it.
    One other potential consequence, and I can provide an 
anecdotal example, one time I was at an event with a State Fish 
and Wildlife Agency Director, and I saw him looking at his 
phone, reading e-mails and shaking his head. I asked him what 
was going on, and he said we just got our Section 6 award for 
the State's portion of endangered species work that we are 
doing. He said, they just said we got awarded $1,200, and they 
had invested significantly more than that in the program.
    In addition to the lack of resources that were provided, 
pursuant to his work on a Federal policy issue, Federal Trust 
Species, I think that type of thing also damages the 
partnerships that many have highlighted so well today, the fact 
that all of these folks can come together through these really 
solid programs that deliver positive results for fish and 
wildlife. The risk of losing that, when partners aren't 
contributing at the level they should, has some pretty severe 
consequences as well.
    Senator Carper. Mr. Treharne, thank you very much.
    I am going to ask John Schmidt to respond briefly to the 
same two questions.
    Again, I will just repeat them, Mr. Schmidt. Would you 
elaborate on the importance of Federal funding for wildlife 
conservation; and second, what do we stand to lose when we 
underfund these programs?
    I am running out of time, but I want to hear from you, just 
briefly, on those two questions. The importance of Federal 
funding for wildlife conservation, and what do we stand to lose 
when we underfund these programs.
    Go right ahead, Mr. Schmidt.
    Mr. Schmidt. Thank you, Chairman Carper. I will make it 
short.
    The economy is a wholly owned subsidiary of the 
environment, and part of that environment is Fish and Wildlife 
resources, and all the non-game species that depend on them for 
their food and the rest of us for our enjoyment. So that is a 
short answer to your No. 1.
    The second part is, what we lose is opportunity. We lose 
opportunity to work with folks that own the vast majority of 
the habitat we wish to make better. So if we don't have 
adequate funding, we lose the opportunity to save species, to 
protect habitat, and to help private landowners do good things 
with their land, which helps our communities.
    Senator Carper. Thank you, sir.
    One last question I have. I think Mr. Sullivan may have 
commented on that, the issue of wildlife crossings. I am going 
to ask Andy Treharne, if you would, to comment on this as well.
    I think, in your testimony, Mr. Treharne, you mentioned the 
importance of habitat connectivity. You expressed support for 
wildlife crossing provisions that this Committee reported 
unanimously as part of the transportation bill we reported out 
in the last Congress.
    I think that was the first time ever in a highway bill we 
included such comprehensive language to address quite a number 
of things as an important issue.
    Mr. Treharne, briefly, would you elaborate on the 
importance of addressing wildlife vehicle safety and habitat 
connectivity, and specifically, the importance of integrating 
these solutions throughout a highway bill, please?
    Mr. Treharne. Yes, thank you, Chairman Carper. The reality 
is that, as I said in my testimony in my opening remarks, there 
are about 2 million vehicle collisions with large animals 
across the country each year.
    This is not only a human safety issue, but there is also a 
cost to taking those animals off the landscape, whether it is 
because you like to look at them or for biodiversity, or 
because somebody would have otherwise purchased a hunting 
license and harvested one to feed their family. It is a public 
safety issue. With so many emerging challenges we are facing, 
wildlife needs to be able to move, especially migrating 
wildlife.
    One of the pleasures I have had in my life was serving on 
the Habitat Stamp Committee for the State of Colorado, which 
directed funding to some projects. During that time, there was 
some wildlife crossing work going on on Highway 9. Large 
animals collisions were something like 35 percent of all 
reported crash types on that highway.
    It is up in the mountains at a higher elevation. Very 
dangerous, and sportsmen and women chipped in a lot through 
their support of the State Fish and Wildlife Agency, working 
with CDOT to develop that project. It has had a 90 percent 
reduction in wildlife-vehicle collisions. Other species are 
using it: Mule deer, elk, turkeys, mountain lions, coyotes, 
river otters.
    So there is a lot of opportunity to build this 
infrastructure and incorporate it into larger programming and 
existing programming, too. Things like the Federal Lands 
Transportation Program, Federal Lands Access Program, as I 
mentioned in my testimony, Section 1125 from ATIA, those are 
all great things that can be helpful for biodiversity as well 
as public safety in a highway bill.
    Senator Carper. All right. Thanks for your response to that 
question, Andy. Again, give our best regards if you come across 
Dr. Wayne Allard, also former Senator Wayne Allard, give him 
our best. His friends here in the Congress, Democrats and 
Republicans alike, send their best to him.
    I really want to thank Dr. Gerber, I want to thank the real 
Ed Sullivan, and Andy Treharne and John Schmidt for joining us 
today. We may have some follow up questions for the record, but 
if you do receive those, I really ask that you respond to them.
    It has been a good hearing. Over half of our Committee, I 
think, has joined us either in person or virtually, and will, I 
am sure, have some follow up questions. We would ask you to 
respond to them as soon as you can.
    In my opening statement, I talked about just how high the 
stakes are when it comes to biodiversity loss. It bears 
repeating again. We have a moral, as well as an existential 
imperative to come together and take action on this vital 
issue. It is no overstatement to say that our lives and our 
livelihoods and those of our children and their children hang 
in the balance, so I am proud that we have been able to meet 
today to examine how we might tackle this critical problem.
    I am hopeful that today's conversation is not the end, but 
the beginning of our work together this Congress as we build 
further on the Committee's reputation as an effective, 
bipartisan committee of workhorses. You have all heard the term 
show horses. We like to think of ourselves in this Committee as 
workhorses, and I believe we are.
    Couple of closing housekeeping items. I would ask unanimous 
consent to enter into the record the following written 
testimonies, letters, and statements, as well as other 
supplemental materials relevant to today's hearing topic. They 
include a statement from Dr. Thomas Lovejoy, Dr. Lee Hannah, 
also a written testimony from Dr. Gabriela Chavarria about 
pollinator loss, and a letter from World Wildlife Fund about 
how the Big Cat Public Safety Act addresses biodiversity 
challenges.
    Is there objection?
    Hearing none, so ordered.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Senators will be allowed to submit 
questions to our witnesses for the record through close of 
business on June the 2nd. We will compile those questions and 
will send them on to our witnesses. We ask our witnesses to 
reply by June the 16th.
    My script here says that, I am supposed to, at this point, 
to say the hearing is adjourned, but I am not quite ready to do 
that.
    A very clever staff, probably with some input from our 
Republican friends, has, at my request, looked to see if there 
is anything in song that relates to today's hearing. I 
mentioned, to the real Ed Sullivan, who is one of our witnesses 
today, Edmund Sullivan, I asked my staff to take a look at one 
of the folks who, one of the groups that was on the Ed Sullivan 
Show when I was in college, I think.
    The Beatles, there's a species to themselves, with some 
interest to all of us. Ladybug is the State bug from Delaware, 
by the way, but I asked my staff to take a look and see 
anything in the Beatles' repertoire that reflects biodiversity.
    As it turns out, remarkably, there are more than a few 
songs. I mentioned one of them, I Am the Walrus, another is 
Blackbird, Blackbird, Singing in the Dead of Night, Norwegian 
Wood, Isn't It Good, And Your Bird Can Sing, Bluejay Way, Rocky 
Raccoon, Mother Nature, Son, Everybody's Got Something to Hide 
Except for Me and My Monkey, Octopus's Garden, and the playlist 
goes on. For some of us, in my generation, that is a playlist 
of my life.
    With respect to life, if we don't look after it, if we 
don't focus on biodiversity and root causes of the threat to 
biodiversity, our lives are--I don't mean to be overly 
dramatic--but our lives and the lives of the people we care 
about are threatened.
    We can do something about it. I am encouraged in this 
Committee, we are committed to doing that.
    With that, I think this hearing is adjourned.
    My thanks to everyone who has participated. I want to thank 
our Republican colleagues who are here on my right, and the 
Democratic staff, the majority staff, directly behind me, and 
everybody that has worked on this hearing today.
    For those of you as witnesses who joined us in person and 
from afar, thank you very much.
    Good luck, God bless, see you soon.
    And with that, this hearing is adjourned.
    [Whereupon, at 11:42 a.m., the hearing was adjourned.]

                          [all]
</pre></body></html>
